No. 20-1605
I N T HE

supretne QCourt of tbe Wniteb states
J USTIN TERRELL ATKINS

Petitioner,
V.

TIMOTHY HOOPER, W ARDEN

Elayn Hunt Correctional Center
Respondent.

PROOF OF SERVICE

I , Christine M. Calogero counsel for Petitioner ,
day of October, 2021,
h ereby certify that on this ~
according to Rule 33.2, 1 original and 10 copies were
sent via FedEx to th e U.S. Supreme Court, and I
served this Mot ion for Leave to Proceed In Forma
Pauperis via email and FedEx on the following counsel:
Robert S. Tew
D ISTRICT ATTORNEY,
4TH J UDICIAL DISTRICT

Robert Nicholas Anderson
ASSISTANT D ISTRICT ATTORNEY,
4TH J UDICIAL DISTRICT

400 Saint John Street
Monroe, LA 71201
(3 18) 388-4566
n ander son@4thda.org

Elizabeth B. Murrill
SOLICITOR GENERAL
Shae McPhee
DEPUTY SOLICITOR GENERAL
Josiah M. Kollmeyer
ASSISTANT SOLICITOR GENERAL
LOUISIANA DEPARTMENT OF JUSTICE
909 Poydras Street, Suite 1850
New Orleans, LA 70 112
(225) 938-0779
M urrillE@ag .louisiana. gov
McPheeS@ag.louisiana.gov
KollmeyerJ@ag. louisiana.gov

I further certify that a ll parties required to be
served have been served.

Ch ·stine M. Calogero
BARRASSO USDIN KUPPERMAN
FREEMAN & SARVER, L.L.C.
909 Poydras Street, Suite 2350
New Orleans, Louisiana 70112
Telephone: (504) 589-9700
ccalogero@barrassousdin.com

Counsel of Record for Petitioner

